      OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION



   Afghan National Security University Has Experienced
     Cost Growth and Schedule Delays, and Contract
           Administration Needs Improvement




                                        October 26, 2011



SIGAR Audit-12-3 Contractor Performance and Oversight / Afghan National Security University
      OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


October 26, 2011

General James N. Mattis
Commander, U.S. Central Command

General John R. Allen
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General William B. Caldwell, IV
Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan

Mr. Terry Edwards
Director, Air Force Center for Engineering and the Environment

This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s audit of U.S. Air Force Center for Engineering and the Environment (AFCEE)
infrastructure projects at the Afghan National Security University (ANSU). This report includes two
recommendations to the Director, AFCEE, to assure that contract files are complete and file information
is consistent and that out-of-scope modifications are justified, approved, and documented.

A summary of this report is on page ii. When preparing the final report, we considered comments from
AFCEE and the NATO Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan, which are reproduced in appendices II and III of this report, respectively. AFCEE noted our
recommendations and discussed actions taken to address them. We conducted this performance audit
under the authority of Public Law No. 110-181, as amended; the Inspector General Act of 1978; and the
Inspector General Reform Act of 2008.




Steven J Trent
Acting Special Inspector General
   for Afghanistan Reconstruction




SIGAR Audit-12-3 Contractor Performance and Oversight / Afghan National Security University        Page i
                  SIGAR
                                                           SIGAR Audit-12-3                                            October 2011
                                                           Afghan National Security University Has Experienced Cost
                                                                 Growth and Schedule Delays, and Contract
                                                                    Administration Needs Improvement
What SIGAR Reviewed
Special Inspector General for Afghanistan Reconstruction
A key objective of the coalition efforts in Afghanistan is to build the country’s capacity to provide for its own security by
housing, training, equipping, and sustaining the Afghan National Security Forces. The Combined Security Transition
Command–Afghanistan (CSTC-A) provided $170 million to the Air Force Center for Engineering and the Environment
(AFCEE) to support construction of facilities at the Afghan National Security University (ANSU), Afghanistan’s premier
officer training facility. AFCEE awarded a task order for the first phase of construction in September 2008 to AMEC Earth
and Environmental, Inc. (AMEC). AFCEE awarded a task order for the second phase to Lakeshore Engineering in
February 2011. SIGAR did not include the second phase in our scope because work had just begun. AFCEE officials were
responsible for providing contract oversight of construction activities and contract administration. SIGAR initiated this
audit to examine (1) construction at ANSU during Phase I, including cost, schedule, and outcomes; (2) contract oversight
and administration by AFCEE; and (3) efforts to obtain security services for ANSU construction activity. To accomplish
these objectives, we reviewed relevant contract files; performed site inspections at ANSU; and interviewed officials
from CSTC-A and AFCEE, among others. We conducted our work at AFCEE headquarters in San Antonio, Texas; Kabul,
Afghanistan; and Washington, D.C., among other places, from December 2010 to October 2011, in accordance with
generally accepted government auditing standards.

What SIGAR Found
Construction at ANSU has experienced cost growth and schedule delays. The task order ceiling price has grown from
$70.2 million to $91.5 million, and the scheduled completion was delayed from June 2010 to October 2011. The cost
growth and schedule delay were due to a combination of added work, costs AMEC incurred awaiting site demining
(conducted under another government contract) and CSTC-A’s changing design preferences, and increased construction
costs. Overall, AFCEE has paid $21.3 million more for 18 fewer facilities and 8 fewer projects than originally planned.
However, AFCEE data show that the ANSU schedule delays are not unique because the large majority of AFCEE projects
for CSTC-A—80 percent—experienced similar delays. According to CSTC-A and AFCEE officials, schedules are purposely
aggressive to push the contractors to complete construction in the shortest time possible so that the overall mission is
successful. Finally, we found that construction quality generally met contract requirements.
Although AFCEE provided active contract oversight at ANSU, we identified some weaknesses in contract administration.
For example, contract files were generally complete, but the task order files contained incomplete and sometimes
inconsistent information as to the reasons for modifications and, for the most part, did not include notices to proceed,
called for by the Federal Acquisition Regulation (FAR). AFCEE awarded AMEC two task order modifications that
included a total of almost $60,000 for providing security that was outside the original scope of the ANSU task order.
While permissible, in doing so AFCEE did not follow Department of Defense (DOD) policy and acquisition requirements.
Finally, AFCEE paid AMEC about $53,500 for the cost of demining activities that should have been paid for under a
separate contract with the U.S. Army Corps of Engineers.
Work at ANSU almost shut down because of issues involving the employment of personnel for the private security
contractor used at the site. In December 2010, AMEC’s security provider, G4S, informed AMEC that it would have to
stop providing security because of its inability to renew the visas of its non-Afghan personnel. AMEC was prepared to
stop work and demobilize, but eventually was able to transition security to the Olive Group, another private security
contractor.

What SIGAR Recommends
To strengthen contract administration, SIGAR is making two recommendations to the Director, AFCEE, to assure that
(1) contract files contain complete and consistent information as to the reasons for task order modifications and (2)
that out-of-scope modifications are justified, approved, and documented. AFCEE noted the recommendations and
discussed actions taken to address them. In response to the second recommendation, AFCEE stated that modifications
are already properly justified and approved through CSTC-A and documented by the AFCEE contracting officer.
However, because SIGAR found that the process used by AFCEE did not work in this case and, as the contracting entity
for CSTC-A, AFCEE’s responsibility is to ensure that it follows DOD policy and FAR requirements.

                     For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil




SIGAR Audit-12-3 Contractor Performance and Oversight / Afghan National Security University                                    Page ii
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
Phase I Construction Experienced Cost Increases and Schedule Delays ...................................................... 4
AFCEE Demonstrated Strong Contract Oversight, But Contract Administration
   Needs Improvement............................................................................................................................... 8
Issues in Providing Security Services Almost Shut Down Construction at ANSU........................................ 12
Conclusion ................................................................................................................................................... 12
Recommendations ...................................................................................................................................... 12
Comments ................................................................................................................................................... 12
Appendix I: Scope and Methodology ......................................................................................................... 14
Appendix II: Comments from the Air Force Center For Engineering and the
   Environment ......................................................................................................................................... 16
Appendix III: Comments from the NATO Training Mission-
   Afghanistan/Combined Security Transition Command - Afghanistan ................................................. 17


TABLES

Table 1: Basic Task Order and Modifications to Contract FA8903-06-D-8507,
    Task Order 0012, dated September 11, 2008 ........................................................................................ 5


PHOTOS

Photo 1: ANSU Construction Site ................................................................................................................. 3
Photo 2: Sink Plumbing Fixtures .................................................................................................................. 8
Photo 3: Shower Plumbing Fixtures ............................................................................................................. 8




SIGAR Audit-12-3 Contractor Performance and Oversight / Afghan National Security University                                                           Page iii
ABREVIATIONS

AFCEE            Air Force Center for Engineering and the Environment
AMEC             AMEC Earth and Environmental, Inc.
ANA              Afghan National Army
ANSF             Afghan National Security Forces
ANSU             Afghan National Security University
CH2M Hill        CH2M Hill Constructors, Inc.
CO               Contracting Officer
COR              Contracting Officer Representative
CSTC-A           Combined Security Transition Command–Afghanistan
DOD              Department of Defense
FAR              Federal Acquisition Regulation
ISAF             International Security Assistance Force
MOD              Modification
NATO             North Atlantic Treaty Organization
Ronco            Ronco Consulting Corporation
SIGAR            Special Inspector General for Afghanistan Reconstruction
USACE            U.S. Army Corps of Engineers




SIGAR Audit-12-3 Contractor Performance and Oversight / Afghan National Security University   Page iv
Afghan National Security University Has Experienced Cost Growth and Schedule
          Delays, and Contract Administration Needs Improvement


One objective of coalition efforts in Afghanistan is to build the country’s capacity to provide for its own
security by training and equipping the Afghan National Security Forces (ANSF). 1 The Combined Security
Transition Command-Afghanistan (CSTC-A) is responsible for planning, programming, and implementing
U.S. training and equipping efforts for the ANSF using funds provided through the Afghanistan Security
Forces Fund. 2 Between fiscal years 2005 and 2011, the U.S. Congress has appropriated about
$39.5 billion for the Afghanistan Security Forces Fund, which provides the funding to train and equip the
ANSF through CSTC-A.

As part of these efforts, CSTC-A is funding the construction of the Afghan National Security University
(ANSU), 3 which is intended to provide military training for officer candidates through the highest
echelons of Afghan National Army (ANA) military personnel. At least 300 officers are expected to be
commissioned annually. ANSU is being built in phases, each to be funded by a task order 4 through the
Air Force Center for Engineering and the Environment (AFCEE), which performs construction services on
behalf of CSTC-A. Phase I is the National Military Academy of Afghanistan. On September 11, 2008,
AFCEE awarded a task order to AMEC Earth and Environmental, Inc. (AMEC) for Phase I in the amount of
$70.2 million. Phase II is the Command General Staff College, which is planned to contain several
schools dedicated to specific areas of advanced military training and education. AFCEE awarded a task
order to Lakeshore Engineering for Phase II on February 28, 2011, in the amount of $78.8 million.

This report is part of a series of Special Inspector General for Afghanistan Reconstruction performance
audits examining contract outcomes, costs, and oversight. We initiated this audit to examine
(1) construction at ANSU during Phase I, including cost, schedule, and outcomes; (2) contract oversight
and administration by AFCEE; and (3) efforts to obtain security services for ANSU construction activity.
We did not include Phase II in our analysis because work had just begun.

To accomplish these objectives, we reviewed relevant contract files, including the statements of work,
modifications, available construction plans and specifications, and quality assurance plans and reports.
We examined criteria and guidance in AFCEE’s policies, as well as in the Federal Acquisition Regulation
(FAR). We inspected ANSU construction, and we interviewed officials from AFCEE headquarters in San
Antonio, Texas; AFCEE-Afghanistan; CSTC-A; AMEC; and Versar, which is AFCEE’s quality assurance

1
 ANSF includes the Afghan National Army and the Afghan National Police.
2
 The North Atlantic Treaty Organization (NATO) Training Mission/CSTC-A operates with a single commander for
both the U.S.-led CSTC-A and NATO. The mission provides training for the Afghan National Army, develops
doctrine, and trains and mentors the Afghan National Police. U.S Forces in Afghanistan report to the commander
of the U.S. Forces-Afghanistan, who also serves as the International Security Assistance Force (ISAF) commander.
The majority of U.S. resources and personnel not dedicated to ISAF are committed to training the Afghan National
Security Forces through CSTC-A.
3
 ANSU is located in Qarghah, Afghanistan, near Kabul.
4
 A task order is an order for services placed against an established contract, in this case the Heavy Engineering,
Repair, and Construction contract.
SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University            Page 1
contractor. We conducted our work in Washington, D.C; Kabul, Afghanistan; and other places from
December 2010 to October 2011, in accordance with generally accepted government auditing
standards. A more detailed discussion of our scope and methodology is in appendix I.


BACKGROUND

AFCEE performs construction contracting services on behalf of CSTC-A. A memorandum of agreement,
dated August 8, 2006, between AFCEE and CSTC-A, delineates the services and the costs of those
services that AFCEE will provide to CSTC-A, including contracting for real property construction and
quality assurance services. In accordance with the memorandum of agreement, AFCEE established an
in-country contracting officer representative (COR) and provided contract administration and technical
support.

In total, CSTC-A plans to spend $190 million to build ANSU. For Phase I, AFCEE competitively awarded a
cost-plus-fixed-fee task order 5 to AMEC on September 11, 2008, in the amount of $70.2 million.
Construction of Phase I is nearing completion and is the focus of this report. AFCEE competitively
awarded a firm-fixed-price task order to Lakeshore Engineering on February 28, 2011, for Phase II in the
amount of $78.8 million. Construction began in March 2011. Through August 2011, AFCEE obligated
approximately $170.3 million to construct the first two phases of ANSU. CSTC-A spending plans include
an additional $20 million for Phase III construction of ANSU if funds become available from a foreign
donor; according to CSTC-A, no U.S. funds will be used.

Construction at ANSU consists of a wide array of facilities.

    •   Phase I includes 16 student and other barracks, four administrative buildings, two three-story
        classroom buildings, two dining facilities, a 2,600 square meter auditorium, a library, two
        multi-purpose gymnasiums, and related utility and site work.
    •   Phase II includes the ANSU headquarters building, Joint Services Academy, Legal Branch School,
        Non-Commissioned Officer Academy, Foreign Language School, Counterinsurgency Academy,
        and Religious and Cultural School. Construction is scheduled to be completed in September
        2012.
    •    Phase III would include a Community Center, three single faculty housing units, and fifteen
        family faculty housing units to house a total of 339 families.

Photo 1 shows some of the work underway.




5
 Under cost-plus contracts the government agrees to pay all costs associated with the work under a contract or
task order that are reasonable, allowable under the FAR, and allocable to the contracted work. The government
bears the risk of any increase in costs, provided the costs are reasonable, allowable, and allocable.
SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University          Page 2
        Photo 1: ANSU Construction Site




        Source: SIGAR, March 2011



AFCEE Selects Contractors Through a Two-Tiered Approach

AFCEE uses a two-tiered approach to select contractors for its construction projects. First, under its
Heavy Engineering, Repair, and Construction business model, AFCEE solicits bids, selects contractors,
and awards multiple contracts, in accordance with the FAR, to provide heavy construction and
engineering activities worldwide. Second, AFCEE headquarters requests proposals covering potential
heavy construction and engineering projects exclusively from the Heavy Engineering, Repair, and
Construction prime contractors. Contractors interested in competing for the work provide proposals.
The AFCEE contracting officer (CO), located in San Antonio, Texas, makes a determination as to which
contractor will provide the best value for the dollar, and the selected contractor is awarded the task
order. The task orders for both phases at ANSU were competitively awarded.

AFCEE Outsources Quality Assurance, but the Contracting Officer Is Ultimately Responsible
for Contractor Oversight

AFCEE engages engineering contractors to provide quality assurance for its construction projects, but
the AFCEE contracting officer has final responsibility for monitoring contractor performance and holding
the contractor accountable for its actions. The quality assurance contractors perform onsite
supervision, inspection, and oversight for construction throughout Afghanistan to ensure that
construction contractors meet quality control and construction standards. Duties include, but are not
limited to, onsite technical surveillance and project assessment; review and comment on the
contractor’s submittals; and preparation and posting of daily quality assurance reports that document
project details, actions taken, and items inspected. The quality assurance contractor provides
documentation of these actions to the COR, who is responsible for evaluating the quality assurance
contractor’s performance and for using the information provided to interact with and advise the CO.
The CO for ANSU, located in San Antonio, Texas, delegates day-to-day oversight to a deployed COR
based in Kabul and a COR based in San Antonio, Texas, who administer the contracts. Quality assurance




SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University   Page 3
services for work at ANSU were initially awarded to Versar, Inc. through November 2009. 6 As that task
order was expiring, AFCEE awarded the task order for quality assurance services to Jacobs Government
Services Company on September 30, 2009. That task order overlapped with Versar's contract through
November 30, 2009. Jacobs then subcontracted with Versar to continue providing quality assurance for
AFCEE construction projects in Afghanistan.

AFCEE’s COR in Kabul is, in turn, supported by the quality assurance contractor, Versar, which maintains
personnel on site at ANSU. Versar works with and reports its observations to AFCEE’s COR. AFCEE’s
COR for ANSU is not located on site and is responsible for multiple projects, which results in Versar’s
personnel serving as the government’s primary onsite monitors for the project and reports regularly to
the COR. Versar's quality assurance activities include, but are not limited to, monitoring contractor
performance; reviewing building designs; inspecting and testing construction materials, analyzing
contractor cost and schedule performance; and inspecting construction quality through routine, pre-
final, and final project assessments. Versar documents and provides to the AFCEE COR the results of its
oversight activities in daily and weekly activity reports, construction deficiency logs, and contractor non-
compliance logs; and it provides AFCEE recommendations on approval of designs and materials. AFCEE’s
COR, in turn, reviews Versar’s reporting and adds observations as comments to the weekly activity
report. The COR is responsible for acting on any concerns identified by Versar. Versar has no authority
to direct the contractor.


PHASE I CONSTRUCTION EXPERIENCED COST INCREASES AND SCHEDULE DELAYS

Construction at ANSU has experienced cost growth and schedule delays. Total project cost has grown
from $70.2 million to $91.5 million, and the scheduled completion date has been delayed from June
2010 to October 2011. The cost growth and schedule delay were due to a combination of added work,
costs AMEC incurred awaiting site demining (conducted under another government contract) and
CSTC-A’s finalizing design requirements, and increased construction costs. Overall, CSTC-A, through
AFCEE, has paid $21.3 million more for 18 fewer facilities and 8 fewer projects than originally planned.
Our review of AFCEE data shows that ANSU is not unique because most AFCEE projects for CSTC-A have
experienced schedule delays. Finally, we found that construction quality generally met contract
requirements.

Phase I Is Over Its Original Cost and Behind Schedule

Phase I was originally scheduled to be completed in June 2010, at a cost of $70.2 million, but is now
scheduled to be completed in October 2011, at a cost of $91.5 million. Phase I was under a cost-plus
task order, and the government paid all the additional costs. As shown in table 1, as of August 2011,
AFCEE awarded 10 modifications for the ANSU task order increasing the overall cost of Phase I by
$21.3 million.




6
 This was a time-and-materials task order. According to the FAR, a time-and-materials contract provides for the
acquisition of supplies or services on the basis of direct labor hours at fixed hourly rates and actual costs of
materials. The task order covers quality assurance services at multiple AFCEE construction projects, including
ANSU.
SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University            Page 4
Table 1: Basic Task Order and Modifications to Contract FA8903-06-D-8507, Task Order 0012, dated
September 11, 2008
Award            Date              Purpose                                         Cost/Schedule Changes
Basic Award      Sep. 11, 2008     Construction of facilities at ANSU.             Originally for $70.2 million
                                                                                   and work scheduled to be
                                                                                   complete June 10, 2010.
Modification     Sep. 30, 2009     Revised the size of 14 buildings; added one     Task order increased by
(MOD) 1                            new building; revised utility infrastructure    almost $11.5 million and
                                   installation; added compensation for            schedule extended by
                                   redesign delays and additional security; and    12 months to June 10, 2011.
                                   descoped seven facilities and six other
                                   projects, i.e., parking areas, driver and
                                   weapon ranges, and tree planting.
MOD 2            Apr. 2, 2010      Expanded scope to include provision for         Task order increased by
                                   security at Task Force Kabul (see note) for     $40,796.
                                   2 months.
MOD 3            May 18, 2010      Extended requirement for AMEC to provide        Task order increased by
                                   security at Task Force Kabul; added funds to    $22,196.
                                   cover additional cost for wastewater
                                   treatment facility; changed design of ANSU
                                   headquarters building; and descoped
                                   six facilities and one project, i.e., asphalt
                                   paving.
MOD 4            Sep. 14, 2010     Changed requirements for culverts, power        No change to schedule or
                                   generation, and electrical work and             cost.
                                   descoped six facilities.
MOD 5            Oct. 8, 2010      Revised scope to include providing              Task order increased by
                                   communication backbone for all Phase I          $1.0 million.
                                   facilities; included requirements to connect
                                   water line to existing Kabul city water line;
                                   and descoped one project, i.e., support area
                                   well.
MOD 6            Jan. 10, 2011     Changed design of one entry control point       No change to schedule or
                                   and descoped two facilities.                    cost.
MOD 7            Feb. 23, 2011     Made minor adjustment to the design of          No change to schedule or
                                   two facilities.                                 cost.
MOD 8            Jun. 2, 2011      Descoped one project, i.e., the entry control   Task order increased by
                                   point between ANSU/Task Force Kabul;            $452,479 and extended
                                   added funds to construct additional             schedule by over 1 month to
                                   generator/transformer pad; install 64 base      July 31, 2011.
                                   cabinets, 60 lab bench tops, and seven
                                   chemical exhaust hoods in building 162;
                                   added rejection lane and two drop arm
                                   barriers.
MOD 9            Jul. 21, 2011     Increased the funding ceiling while longer      Task order increased by
                                   extension was being prepared.                   $654,480 and extended
                                                                                   schedule by 2 weeks to
                                                                                   August 15, 2011.


SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University             Page 5
Award              Date               Purpose                                           Cost/Schedule Changes
MOD 10             Aug. 8, 2011       Provided increased funding; no change in          Task order increased by
                                      scope.                                            $7.6 million and extended
                                                                                        schedule by over 2 months
                                                                                        to October 31, 2011.
Source: Developed by SIGAR from HQ AFCEE contract, task order, and modification data.

Note: Task Force Kabul is a separate ANA facility adjacent to ANSU but within the ANSU perimeter wall.

According to an AFCEE official, AMEC has turned over 38 facilities and continues to work on the
remaining facilities.

Several Factors Combined to Increase Cost and Delay Completion

The reasons for the cost growth and schedule delay were a combination of added work, the need for
AMEC to wait for the U.S. Army Corps of Engineers (USACE) to conduct demining of the work site and for
CSTC-A to decide on desired design changes to facilities, and increases in AMEC’s construction cost.
According to AFCEE, additional reasons for cost growth were logistical and transportation delays of
materials and equipment, unforeseen site conditions, delays due to security incidents and the high
threat environment, and a lack of skilled local labor. Overall, we determined that AFCEE has paid
$21.3 million more for 18 fewer facilities and 8 fewer projects than originally planned.

Because facilities that were removed will likely be included in later contracts for construction at ANSU,
the overall cost of construction at ANSU could easily be higher. Although AFCEE deleted $12 million in
work from the Phase I task order, it also added a total of $33.4 million, for an overall cost increase of
$21.3 million. The $33.4 million included $14.8 million to pay for new work and changes to planned
facilities, $5.7 million to cover the costs of government delay, and $12.9 million to pay for higher
construction costs and increased labor costs associated with the longer construction period. Specifically,

    •    AFCEE added $14.8 million to fund new work and changes to facilities under the original
         contract. Between June 2009 and April 2010, AFCEE added construction of two K-spans 7 and a
         small arms storage building. It also added a communication system for the site. According to
         file documentation, AFCEE removed facilities in order to cover cost overruns, ensure AMEC was
         able to meet the completion date, and pay for added facilities or design changes. In
         commenting on a draft of this report, CSTC-A indicated that facilities were added and removed
         as the vision and requirements for ANSU evolved and were updated, and that these mission and
         associated end-user requirements were responsible for a significant portion of the cost and
         schedule growth.
    •    AFCEE also added $5.7 million to the task order to pay costs AMEC incurred awaiting completion
         of demining and design changes.

                 Regarding demining, CSTC-A and AFCEE did not ensure that site demining was
                  synchronized with the construction effort. AFCEE awarded the contract for construction
                  of ANSU 2 weeks prior to USACE awarding a separate contract for demining on the site.
                  According to a USACE official, having AMEC on site during demining delayed USACE’s
                  progress because CSTC-A requested that demining activities be moved multiple times.
                  The official added that typically demining should be complete or nearly complete before

7
 A K-span is a pre-engineered building built with roll-formed arched steel structures that weld together in large
sections to form a self-supporting building with no internal structure. A K-span building can be used many ways,
including as a warehouse, hangar, office space, or troop barracks.
SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University                Page 6
                 any construction contract is awarded. The portion of the increased cost due to delays
                 in demining is unclear.
                According to the project files, after the task order was awarded, CSTC-A requested
                 changes to facility designs, including making buildings more ornate. After AMEC spent
                 several months developing these new designs, the government estimate revealed that
                 the desired changes would cost $37 million, so CSTC-A decided not to pursue them.
                 More than 6 months later, and after a rotation of personnel, AFCEE requested that the
                 facility designs revert to the original, basic plans specified in the task order, and CSTC-A
                 agreed. As with the demining costs, the portion of the increased cost due to delays
                 while awaiting design changes is unclear.

    •   Finally, higher construction costs and increased labor costs associated with the longer
        construction period totaled $12.9 million. According to AFCEE, these costs increased for a
        number of reasons. For example, AMEC’s cost estimates for construction were 3 years old and,
        therefore, did not reflect current costs. In addition, customs issues in Pakistan delayed shipping
        of major components needed to build ANSU’s power plant. Finally, poor performance on the
        part of some of AMEC’s subcontractors resulted in a 30 to 45 day delay in construction of some
        of the larger buildings, including the dining facility, auditorium, and headquarters building.

Schedule Delays Appear to Be a Systemic Issue

The construction delays at ANSU are not unique. We reported in our review of construction at the Kabul
Military Training Center that about 80 percent of all AFCEE construction projects for CSTC-A experienced
schedule delays. 8 Specifically, between 2006 and 2010, our review of AFCEE data showed that 33 of
41 of AFCEE construction projects for CSTC-A were delayed. The delays ranged from less than 1 month
to 24 months and averaged 10 months. We found that delays occurred for a variety of factors, including
work added to task orders, unanticipated site conditions, contractor performance problems, difficulties
in delivering materials, security concerns, and delays associated with waiting for government action.
Based on meetings with contractor, CSTC-A, and AFCEE officials, we concluded that aggressive schedules
driven by mission needs did not take factors that cause delays into account. Consequently, construction
often could not be completed within the desired timeframe. AFCEE told us that schedules are purposely
aggressive to push the contractors to complete construction in the shortest time possible so that the
overall mission is successful.

Construction Quality Generally Met Contract Requirements

We found that the quality of construction at ANSU generally met contract requirements. When our
engineer inspected the ANSU site in May 2011, he noted some problems, but found that construction
quality generally aligned with contract standards. For example, most of the construction at this facility is
reinforced concrete pier and beam with concrete masonry unit walls. In the finished and in-progress
construction samples he observed, reinforced concrete and concrete masonry unit construction was
generally acceptable in walls, columns, beams, flooring, and roofs. No cracks or failures were evident.
Floors were finished with a two-part epoxy, which should last for years. A good quality example is the
main dining facility—a large facility designed to seat 2,000 people—which is constructed almost entirely
of reinforced concrete and had no evidence of any structural defects. Because construction of this
phase of work was nearing completion, our inspection was limited to the nearly completed structures;
we were not able to examine construction features such as foundation footings and wiring inside walls
that are no longer visible.

8
 SIGAR Audit-12-2 Better Planning and Oversight Could Have Reduced Construction Delays and Costs at the Kabul
Military Training Center, October 26, 2011.
SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University        Page 7
Although overall construction met contract requirements, we identified quality issues involving
plumbing fixtures. Specifically, we found the contractor had installed “goose-neck” faucets and
unsubstantial shower heads in the shower buildings, as shown in photos 2 and 3.


Photo 2: Sink Plumbing Fixtures                           Photo 3: Shower Plumbing Fixtures




Source: SIGAR, May 2011                                   Source: SIGAR, May 2011

According to the AFCEE COR, the plumbing fixtures that were installed are acceptable for ANSU because
it is a university and not a typical ANA facility. However, these plumbing fixtures will be more difficult to
maintain in the long-term due to the heavy use they will receive. The AFCEE COR is aware of the
concern that “goose-neck” faucets are not sufficiently sturdy for facilities in Afghanistan.

On February 3, 2011, well after the ANSU requirements were developed in 2006-2007, CSTC-A issued a
memorandum on “austere” construction specifications. Among other things, the new standards call for
the use of more durable low profile metal valves, rather than “goose-neck” faucets. CSTC-A officials
explained that developing construction standards for use by the ANSF has been a learning experience
regarding cultural differences, and that the changes to the standards reflect the results of that
experience. In our May 2011 site inspection of ANSU, we observed the use of austere standards in
flooring, heating, and cooling systems, but not in plumbing fixtures.


AFCEE DEMONSTRATED STRONG CONTRACT OVERSIGHT, BUT CONTRACT ADMINISTRATION
NEEDS IMPROVEMENT

Versar, AFCEE’s quality assurance contractor, exercised extensive contract oversight at ANSU; however,
AFCEE’s contract administration was weak in some instances. Versar performed a wide array of
oversight functions, including design reviews, onsite inspection, and testing of construction material. At
the same time, AFCEE did not fully exercise all of its contract administration responsibilities. For
example, AFCEE’s task order files contained incomplete and sometimes inconsistent information as to
the reasons for modifications and, for the most part, did not include notices to proceed called for by the
FAR. In addition, AFCEE did not comply with administrative requirements when awarding AMEC two
task order modifications for work outside the original scope of the ANSU task order. Finally, AFCEE paid
AMEC almost $54,000 for demining activities that should have been covered under a USACE contract for
demining.




SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University      Page 8
AFCEE and Versar Demonstrated Active Oversight of ANSU Construction

We found extensive contract oversight at ANSU. Versar’s daily and weekly activity reports and
construction deficiency logs/contractor non-compliance logs contained considerable information on a
variety of topics, including quality, status, and key events. For example, our review of the daily reports
indicated that Versar prepared documentation relevant to the various construction activities and the
reports complied with criteria found in the contract. The reports were detailed and indicated the
contractor paid close attention to the construction. We also found that the AFCEE COR closely reviewed
Versar’s reporting, adding his own observations as comments to the weekly activity report. In addition,
during our inspection of ANSU, we observed Versar personnel on site providing inspection, field
construction management, and quality assurance oversight of the project. Finally, we observed that
Versar personnel assisted AFCEE’s COR in enforcing contractual requirements and construction
standards and that AFCEE’s COR periodically visited the work site.

The Contract File Was Largely Complete, but Documentation Could Be Improved

Our review of the ANSU task order files showed them to be largely complete, with some exceptions.
According to FAR Subpart 4.8, contract files shall contain documentation sufficient to constitute a
complete history of the transaction. 9 We reviewed AFCEE’s official contract file for the ANSU Phase I
award and all modifications, as of April 25, 2011. For the ANSU task order and its modifications, about
150 items should be included in the file. We found that all but five of the required items were in the file.

While the contract files were largely complete, the ANSU contract file contained incomplete and
sometimes contradictory information as to the reasons for modifying the contract. As was the case with
our review of AFCEE’s construction task orders for construction at the Kabul Military Training Center, 10
the ANSU task order modifications did not provide detail as to the reasons for them. We were able to
identify the reasons for some, but not all, from a review of other file documentation. In addition, the
files sometimes contained contradictory information. For example, file documentation was inconsistent
in explaining reasons for cost growth.

    •    In one instance involving increased security costs, the change request included in the file
         indicated an increase of about $440,000, but the award was for $1.5 million. The file contained
         no explanation as to why the amounts differed.
    •    In another instance, AFCEE documentation indicated delays in demining resulted in increased
         cost, while AMEC documents indicated the primary reason was changes to facility designs. The
         file contained no discussion of the costs associated with adding and revising facilities.

In addition, we found that AFCEE did not maintain documentation of the notices to proceed. 11 The FAR
cites the notices to proceed as examples of records normally contained in contract files, if applicable.12
AFCEE’s Contingency Construction Project Manager Handbook 13 also recognizes the importance of
notices to proceed. The handbook states that the project’s notice to proceed authorizes the contractor

9
 This documentation serves to provide a basis for informed decisions, to support actions taken, to provide
information for reviews and investigations, and to furnish essential facts in the event of litigation or congressional
inquiries.
10
  SIGAR Audit-12-2, Better Planning and Oversight Could Have Reduced Construction Delays and Costs at the Kabul
Military Training Center, October 26, 2011.
11
  The notice to proceed is the government’s authorization for the contractor to begin work.
12
  FAR Subpart 4.803.
13
  The handbook was developed by AFCEE from lessons learned throughout its contingency construction
experiences and serves as guidance concerning contract file documentation.
SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University               Page 9
to begin initial activities and that any work change cannot be executed until a notice to proceed is issued
by the CO.

AFCEE and AMEC officials could not provide documentation of partial or full notices to proceed directing
the contractor to begin work on the basic award or any modifications. Although we found a partial
notice to proceed for a stone wall project, AFCEE officials told us they do not document notice to
proceed because it is included with the award of the task order. An AMEC official agreed that notice to
proceed is included in the award of the task order. However, we found that not documenting notices to
proceed created some confusion. For example, ANSU project correspondence contains an email from
one of the project CORs who was confused about what the contractor was directed to do and when.
Without including the notice to proceed in the contract file, the file did not provide a complete history
of the transaction, which can lead to confusion and potential waste if the contractor is performing work
without specific direction to do so. In discussing this matter with AFCEE, the CO for ANSU agreed that
AFCEE should include notices to proceed in the file. In July 2011, AFCEE officials stated that including
notices to proceed in the files was initially an informal process, but that they are now including them
more systematically.

AFCEE Did Not Follow DOD Policy and FAR Requirements in Awarding Almost $60,000 in Work
That Was Out of Scope

AFCEE modified the ANSU task order to award almost $60,000 to AMEC to provide security at Task Force
Kabul, but did not follow DOD policy and FAR requirements in awarding this out-of-scope work. Task
Force Kabul is a separate ANA facility within the ANSU perimeter wall. Work at Task Force Kabul was
being conducted by a different contractor, CH2M Hill Constructors, Inc. (CH2M Hill), under a separate
AFCEE contract. AFCEE officials told us that as Task Force Kabul was being completed, it became clear
that while the contractor was demobilizing, the ANA was not ready to accept transfer of the Task Force
Kabul facility. AFCEE reviewed its options for protecting the site, including extending CH2M Hill’s
contract versus providing security through AMEC’s task order for ANSU. Although it recognized that this
work was out of the scope of the ANSU task order, AFCEE determined that using AMEC would be in the
best interest of the government. As a result, AFCEE modified the ANSU task order, adding a total of
$59,704 for AMEC to provide security at Task Force Kabul.

However, AFCEE did not adhere to both DOD policy and FAR requirements in doing so. DOD’s Defense
Procurement and Acquisition Policy 14 allows for modifying existing contracts to add work that is outside
the scope of the existing contract as long as three general rules are followed. Those rules are (1) the
modification must be agreed to by both the government and the contractor; (2) the modification must
have a justification and approval; and (3) if the modification value exceeds $550,000, it must be
approved above the CO level. AFCEE did not comply with the first two rules, and the third did not
apply. 15 Specifically, AFCEE made the award unilaterally, not bilaterally, and did not prepare the
required justification and approval.

Adding security for Task Force Kabul to the ANSU task order was also, in effect, a sole source award, i.e.,
the work was awarded without competition. According to the FAR, the CO must justify the award in
writing, certify the accuracy and completeness of the justification, and obtain relevant approvals. 16
However, as of May 2011, AFCEE has not complied with this FAR requirement. According to AFCEE, the
government obtained cost savings by using the task order with AMEC. Furthermore, AFCEE stated that

14
   Defense Contingency Contracting Handbook, Chapter 6-Contract Administration.
15
   For the Task Force Kabul modification, the value was less than $60,000, so it only required contracting officer
approval.
16
   See FAR Subpart 6.303-1.
SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University             Page 10
it would not have solicited just the additional security work to all Heavy Engineering, Repair, and
Construction contractors. While this information helps explain why AFCEE awarded the work to AMEC,
it does not explain why AFCEE failed to follow the policies or requirements related to sole-source
awards.

AFCEE Unnecessarily Paid About $53,500 for Demining at ANSU

AFCEE paid AMEC $53,519 for demining at ANSU in 2009, even though a USACE contract was in place to
provide for demining at the site. Beginning in September 2008, USACE contracted with Ronco
Consulting Corporation (Ronco) to clear landmines and unexploded ordnance at ANSU. AFCEE informed
AMEC of this contracting arrangement and instructed AMEC in writing that it was not to conduct any
demining activities. However, in December 2008, AMEC subcontracted with Ronco to conduct demining
at the site and between October and December 2009 AMEC submitted three invoices to AFCEE totaling
$53,519 for Ronco’s work. AFCEE accepted these invoices for payment in December 2009.

However, in a review of AMEC’s invoices, the AFCEE program manager identified AMEC’s divergence
from AFCEE’s instructions. The program manager then informed AMEC that he had rejected paying one
invoice because demining was not covered as a reimbursable expense in the contract between AFCEE
and AMEC. According to an internal AFCEE memo, when the issue was brought to another AFCEE
official, that official stated the charges should be paid because “the auditors would not catch something
this small” and because “we [AFCEE] do what we need to do to get the job done.” AMEC resubmitted
this invoice, and AFCEE approved it for payment in March 2010.

When we asked AFCEE officials why they ultimately agreed to pay the voucher, they stated that they
had determined that the voucher was allowable because of confusion at the time regarding the scope of
Ronco’s two demining contracts. Specifically, AMEC had initially understood the contract between
USACE and Ronco to cover demining only up to a 1-meter depth. AMEC subcontracted with Ronco only
to sweep and clear areas from the 1 meter already cleared to a depth of approximately 3 to 4 meters.
The AFCEE COR in Afghanistan also understood the two contracts to cover different depths. Therefore,
according to AFCEE, “AMEC’s limited clearance during the pre-clarification period was an allowable
task…and not a duplication of effort.”

In its response to our draft report, AFCEE asserted that the USACE contract did not include the demining
activities required and was not the exclusive contract for demining. AFCEE also stated that since AMEC
used the same demining subcontractor that USACE used, Ronco, the government did not have to pay for
additional mobilization costs.

Our review of USACE’s contract with Ronco shows that it did not limit demining to a 1-meter depth and,
therefore, the two contracts are duplicative. In addition, project file correspondence among AFCEE,
USACE, and AMEC shows that AFCEE and USACE ultimately reached agreement that all demining should
be done by USACE and that AMEC’s work was duplicative of USACE’s contract. Therefore, AFCEE did not
have to pay the $53,519 in demining work because it was covered under the USACE contract with
Ronco. Although AFCEE could take steps to recoup the $53,519 from AMEC, this may not be warranted
because AFCEE shares responsibility for any confusion during the period of performance under the
subcontract.




SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University   Page 11
ISSUES IN PROVIDING SECURITY SERVICES ALMOST SHUT DOWN CONSTRUCTION AT ANSU

Work at ANSU almost shut down in December 2010 when AMEC’s security provider, G4S, informed
AMEC that it would have to stop providing security services because of its inability to renew the visas of
its non-Afghan personnel. 17 The Afghan government was unwilling to issue visas, despite promises to do
so and AFCEE’s support of the visa request. In a December 10, 2010 email and an update on
December 16, 2010, AMEC advised AFCEE that its security subcontractor would be required to withdraw
all of its non-Afghan security personnel unless its visas were renewed by December 19, 2010. Due to the
decreased security force, AMEC advised AFCEE that it would withdraw its personnel if it could not
supplement G4S security personnel with another security subcontractor. Although AMEC was able to
negotiate a transition to another security provider, Olive Group, and continue work in Afghanistan,
AMEC had begun making plans to close its ANSU operations. Olive Group took over movement security
and security for AMEC’s life support areas in December 2010, and AMEC restructured its contract with
G4S to limit it to perimeter and entry control point security. Effective June 12, 2011, all security services
transitioned to Olive Group.


CONCLUSION

Construction at ANSU experienced net cost growth as facilities were added, overall construction costs
grew, and other facilities were removed. The project’s completion is currently delayed by over 1 year.
Contract administration needs improvement. We found that the contract file for ANSU contained
incomplete and sometimes contradictory information as to the reasons for task order modifications. In
addition, contrary to FAR requirements and AFCEE’s Contingency Construction Project Manager
Handbook, notices to proceed were often not included in the contract files. AFCEE awarded AMEC two
modifications that included a total of almost $60,000 for providing security that was outside the original
scope of the ANSU task order. While permissible, in doing so AFCEE did not follow DOD policy and FAR
requirements.


RECOMMENDATIONS

To strengthen contract administration at ANSU and ensure appropriate use of government funds, SIGAR
is making two recommendations to the Director, AFCEE:

     1. Assure that, in the future, the ANSU task order file is complete, including complete and
        consistent documentation as to the reasons for task order modifications and that all notices to
        proceed are included in the contract files and consider expanding the practice to all CSTC-A
        funded task order files.
     2. Assure that out-of-scope modifications are properly justified, approved, and documented.


COMMENTS

AFCEE and CSTC-A provided written comments on a draft of this report. These comments are
reproduced in appendices II and III, respectively. AFCEE and CSTC-A also provided technical comments,
which we incorporated into the draft, as appropriate.


17
  The ANSU task order requires that AMEC provide for its own site and movement security. AMEC originally
contracted with the security provider G4S (formerly Armour Group) in November 2008 to provide for all its
security.
SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University       Page 12
In its comments, AFCEE indicated that it has taken actions to implement our first recommendation.
Specifically, AFCEE stated that the ANSU task order file has been updated and that the file will be
reviewed after each modification to ensure that it is complete and accurate. In response to our second
recommendation, AFCEE stated that because CSTC-A signs off on all work change requests the
modification action is justified and approved by the organization responsible for the development of the
project requirements and funding. In addition, AFCEE noted that the CO makes a determination to
ensure that the modification is within the scope of the active task order. AFCEE also stated that all
documentation is placed in the file and reviewed during every modification action. However, our review
found that, despite the described process, AFCEE did not follow DOD or FAR requirements in awarding
almost $60,000 in out-of-scope work. As the contracting entity, AFCEE’s responsibility is to ensure that
modifications are properly justified and approved. Therefore, AFCEE still needs to take corrective action
to address this recommendation.




SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University   Page 13
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) review of construction at the Afghan National Security University (ANSU).
ANSU is being built in phases. As of August 2011, the Combined Security Transition Command-
Afghanistan (CSTC-A) had funded two task orders through the Air Force Center for Engineering and the
Environment (AFCEE) to support construction at ANSU. Phase I is the National Military Academy of
Afghanistan, which will serve as the Afghan National Army Officer Candidate School. AFCEE awarded a
task order to AMEC Earth and Environmental, Inc. (AMEC) for Phase I on September 11, 2008.
Construction of Phase I is nearing completion and is the focus of this report. AFCEE competitively
awarded a firm-fixed-price task order to Lakeshore Engineering on February 28, 2011 for Phase II. We
did not include this phase in our scope because construction is just beginning. These task orders were
funded by CSTC-A and implemented by AFCEE. This report is part of a series of performance audits by
the SIGAR examining contract outcomes, costs, and oversight. This report examines (1) construction at
ANSU during Phase I, including cost, schedule, and outcomes; (2) contract oversight and administration
by AFCEE; and (3) efforts to obtain security services for ANSU construction activity.

To examine contract modifications and whether construction at ANSU met the terms of the task order,
SIGAR met with officials from AFCEE (based in San Antonio, Texas); AFCEE-Afghanistan; CSTC-A; the
construction contractor (AMEC); and the quality assurance contractor (Versar, Inc.). We reviewed the
contract documentation, including statements of work, modifications, email documents, and contracting
officer correspondence. We conducted a site inspection in March 2011, and again in May 2011. During
our site inspections, we examined the interior and exterior of all completed buildings, as well as the
grounds within the perimeter of the construction sites. We also reviewed electronic files and
correspondence from AFCEE-Afghanistan and CSTC-A. We did not rely on computer processed data to
determine construction status. We obtained documentation available on the prime and quality
assurance contractor Web sites (designed and provided in accordance with AFCEE contracts).

To examine project oversight, we met with officials from AFCEE; AFCEE-Afghanistan; Versar, Inc.; and
CSTC-A. We reviewed criteria and guidance in the Federal Acquisition Regulation, Versar’s quality
assurance reports, and AFCEE guidance for construction to determine if the contracting process and
oversight of the contracts met AFCEE regulations and contract requirements. Additionally, we reviewed
AFCEE guidance to determine the roles and responsibilities of AFCEE and AFCEE-Afghanistan personnel.

To examine the status of providing security, we held discussions with officials from AFCEE-San Antonio,
AFCEE-Afghanistan, and AMEC, and reviewed AMEC’s subcontracts for security services. We also
reviewed email communication in which AMEC advised AFCEE of the difficulties its security provider was
facing.

We assessed internal controls over contract administration and oversight procedures through interviews
with contracting officials and reviews of relevant contract files. The results or our assessment are
included in the body of this report.

We conducted work in at AFCEE headquarters in San Antonio, Texas; AMEC’s corporate office in
Plymouth Meeting, Pennsylvania; Vesar’s office in Westminster, Colorado; Kabul, Afghanistan; and
Washington, D.C., from December 2010 to October 2011, in accordance with generally accepted
government auditing standards. These standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives. The audit was conducted by the Special Inspector

SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University   Page 14
General for Afghanistan Reconstruction under the authority of Public Law 110-181, as amended; the
Inspector General Act of 1978; and the Inspector General Reform Act of 2008.




SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University   Page 15
APPENDIX II: COMMENTS FROM THE AIR FORCE CENTER FOR ENGINEERING AND THE
ENVIRONMENT




SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University   Page 16
APPENDIX III: COMMENTS FROM THE NATO TRAINING MISSION-AFGHANISTAN/COMBINED
SECURITY TRANSITION COMMAND - AFGHANISTAN




SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University   Page 17
SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University   Page 18
           (This performance audit was conducted under the audit project code SIGAR-040A).




SIGAR Audit-12-3 Contractor Performance and Oversight / Afghanistan National Security University   Page 19
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              publically released reports, testimonies, and
                              correspondence on its Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     2530 Crystal Drive
                                     Arlington, VA 22202
